FEC -- Semiannual Report:  Executive Summary (9/97)
Federal Election Commission
Office of Inspector General -- Semiannual Report
Period ending September 30, 1997
If you require the entire printed version of this report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
This report is submitted pursuant to the Inspector General Act of 1978, as amended, and includes a summary of the Office of Inspector General's activities for the period April 1, 1997 through September 30, 1997.
During this reporting period, three audits were started and two audit follow-up reports were completed.  Two cash counts of the Federal Election Commission's imprest funds were also conducted and reports to management were issued.
An audit of the Commission's management of software was one of the three audits started during this reporting period.  This audit was put on temporary hold but will be reactivated during the upcoming period.
The other two audits that were commended was an audit of the Commission's appraisal process and n audit of the Commission's management of personal and laptop computers.  Both of these audits are expected to be completed and released with the next six month reporting period.
Further details on the status of these audits will be discussed in the audit section of this report.